<html>
<title> - LOST IN TRANSLATION: A REVIEW OF THE FEDERAL GOVERNMENT'S EFFORTS TO DEVELOP A FOREIGN LANGUAGE STRATEGY</title>
<body><pre>[Senate Hearing 110-84]
[From the U.S. Government Printing Office]


                                                         S. Hrg. 110-84
 
                  LOST IN TRANSLATION: A REVIEW OF THE 
                FEDERAL GOVERNMENT'S EFFORTS TO DEVELOP 
                      A FOREIGN LANGUAGE STRATEGY 
=======================================================================
                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                THE FEDERAL WORKFORCE, AND THE DISTRICT
                        OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 25, 2007

                               __________

        Available via http://www.access.gpo.gov/congress/senate

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

                     U.S. GOVERNMENT PRINTING OFFICE

33-872 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

























        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
              Brandon L. Milhorn, Minority Staff Director
                  Trina Driessnack Tyrer, Chief Clerk


 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                          DISTRICT OF COLUMBIA

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
THOMAS R. CARPER, Delaware           TED STEVENS, Alaska
MARK L. PRYOR, Arkansas              TOM COBURN, Oklahoma
MARY L. LANDRIEU, Louisiana          JOHN WARNER, Virginia

                   Richard J. Kessler, Staff Director
             Jennifer A. Hemingway, Minority Staff Director
                      Emily Marthaler, Chief Clerk


















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Voinovich............................................     3

                               WITNESSES
                       Thursday, January 25, 2007

Hon. Michael L. Dominguez, Principal Deputy Under Secretary of 
  Defense, Personnel and Readiness, U.S. Department of Defense...     6
Holly Kuzmich, Deputy Chief of Staff for Policy and Programs for 
  Secretary of Education Margaret Spellings, U.S. Department of 
  Education......................................................     7
Everette E. Jordan, Director, National Virtual Translation 
  Center, on behalf of the Federal Bureau of Investigations......     9
Rita Oleksak, President, American Council on the Teaching of 
  Foreign Languages..............................................    22
Michael Petro, Vice President and Director of Business and 
  Government Relations, and Chief of Staff, Committee for 
  Economic Development...........................................    24
Diane W. Birckbichler, Ph.D., Director, Foreign Language Center 
  and Chair of the Department of French and Italian, Ohio State 
  University.....................................................    26

                     Alphabetical List of Witnesses

Birckbichler, Diane W., Ph.D.:
    Testimony....................................................    26
    Prepared statement...........................................    91
Dominguez, Hon. Michael L.:
    Testimony....................................................     6
    Prepared statement...........................................    39
Jordan, Everette E.:
    Testimony....................................................     9
    Prepared statement...........................................    68
Kuzmich, Holly:
    Testimony....................................................     7
    Prepared statement...........................................    61
Oleksak, Rita:
    Testimony....................................................    22
    Prepared statement...........................................    72
Petro, Michael:
    Testimony....................................................    24
    Prepared statement...........................................    87

                                APPENDIX

Letter from Bret Lovejoy, Executive Director, American Council on 
  the Teaching of Foreign Languages, dated February 2, 2007, to 
  Senators Akaka and Voinovich...................................    98
Background Memorandum............................................   100


  LOST IN TRANSLATION: A REVIEW OF THE FEDERAL GOVERNMENT'S EFFORTS TO 
                  DEVELOP A FOREIGN LANGUAGE STRATEGY

                              ----------                              


                       THURSDAY, JANUARY 25, 2007

                                   U.S. Senate,    
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                             Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:44 p.m., in 
room 342, Dirksen Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Subcommittee, presiding.
    Present: Senators Akaka and Voinovich.

               OPENING STATEMENT OF SENATOR AKAKA

    Chairman Akaka. I call this hearing of the Subcommittee on 
Oversight of Government Management, the Federal Workforce, and 
the District of Columbia to order.
    Before we begin, I want to say how much I have enjoyed 
working with Senator Voinovich. He has been a great leader.
    I have worked very well with him, and I look forward to 
continue to work with him in a bipartisan manner and maybe I 
should say at this time even better than a bipartisan manner. 
We have been good friends and our goals are the same: To do 
whatever we can to help our country move forward.
    I look forward to our continued partnership to improve 
government programs and make the Federal Government an employer 
of choice. He has been working real hard on that, and we will 
see what we can do together in the next few years.
    Today's hearing, ``Lost in Translation: A Review of the 
Federal Government's Efforts to Develop a Foreign Language 
Strategy,'' will examine a critical issue for both our national 
and economic security: What is the Federal Government's 
strategy for addressing the shortfall of Americans with foreign 
language proficiency?
    The Federal Workforce Subcommittee has been looking at the 
Federal Government's ability to recruit and retain language-
proficient individuals since the year 2000. For the last 6 
years, I have tried along with colleagues on both sides of the 
aisle to encourage the Administration to address the 
government's foreign language needs.
    It has become clear that while agencies can offer 
incentives for individuals with language skills to work for the 
Federal Government, it is increasingly more difficult to do so 
when there is a severe shortage of language skills in the 
American workforce. That is why today we are discussing the 
Federal Government's efforts to address this challenge from all 
fronts.
    We know that proficiency in other languages is critical to 
ensuring our national security. The inability of law 
enforcement officers, intelligence officers, scientists, and 
military personnel to interpret information from foreign 
sources, as well as interact with foreign nationals, presents a 
threat to their mission and to the well-being of our Nation.
    I remember FBI Director Robert Mueller shortly after the 
terrorist attacks of September 11, 2001, making a plea for 
speakers of Arabic and Farsi to help the FBI and national 
security agencies translate documents that were in U.S. 
possession but left untranslated because there were not enough 
employees with the right language skills.
    Unfortunately, this is not surprising. The United States is 
well known for lagging far behind much of the world with 
respect to emphasizing foreign language education.
    According to the 2000 census, only 9.3 percent of Americans 
speak both their native language and another language fluently, 
compared with 56 percent of citizens in the European Union. 
What is alarming is that 5 years after September 11, we are 
still falling behind.
    In December, the Iraq Study Group reported that of the 
1,000 embassy employees in Baghdad, there were only 33 Arabic 
speakers, of which only six are fluent, and recommend that 
language proficiency and cultural training be given the highest 
possible priority by the Director of National Intelligence and 
the Secretaries of Defense and State.
    However, strengthening national security should not be the 
only reason for improving the country's language proficiency. 
The basic economic and career security of many Americans is now 
tied to foreign language capability.
    Increased globalization allows Americans to compete for 
jobs in a marketplace that is no longer confined to the 
boundaries of the United States. One basic skill required to 
thrive in this new economic environment is fluency in foreign 
languages.
    According to the Committee for Economic Development, the 
lack of foreign language skills and international knowledge can 
result in embarrassing and costly cultural blunders for 
individual companies. In fact, American companies lose an 
estimated $2 billion a year due to inadequate cultural 
understanding.
    Although the Federal Government has worked to address 
language needs in the United States over the past 40 years, 
these efforts appear to be in reaction to international events. 
We do not have a proactive policy.
    In 1958 the National Defense Education Act was passed in 
response to the Soviet Union's first space launch. We were 
determined to win the space race and make certain that the 
United States never come up short again in areas of math, 
science, technology, or foreign languages.
    NDEA was a great success, but in the late 1970s its 
language programs merged into larger education reform measures 
and lost their prominence.
    The results are clear. In 1979 the President's Commission 
on Foreign Language and International Studies said that 
``American's incompetence in foreign languages is nothing short 
of scandalous and it is becoming worse.''
    After September 11, Congress and the Administration once 
again took action to address language shortfalls, but I fear 
that these efforts will prove to be only a band-aid and not a 
complete cure to the Nation's recurring foreign language needs.
    To me the most interesting aspect of the problem is that 
both the 1979 Commission and the participants of the 2004 
Department of Defense National Language Conference called for 
naming a senior government official to lead the government's 
foreign language education effort and establishing a council or 
commission representing a broad spectrum of stakeholders to 
report on the Nation's language needs and propose actions to 
address them.
    In fact, both groups note that all interested parties must 
be involved as all sectors, government, industry, and academia, 
have a need for language-proficient individuals and no one 
sector has all of the solutions.
    Despite the Administration's efforts to implement new 
programs and policies to address our language shortfalls, I 
fear that without sustained leadership and coordinated effort 
among all Federal agencies, State and local governments, the 
private sector and academia, the United States will remain 
where we are today: Scrambling to find linguists after another 
major international event.
    The United States cannot afford to do this and cannot 
afford to wait. The failures of communication and understanding 
would have already done their damage.
    I am pleased that the Administration's National Security 
Language Initiative is coordinating efforts among the 
Intelligence Director and the Departments of Defense, 
Education, and State to address our national security language 
needs.
    However, I believe we must ensure that this effort will 
continue into future administrations, bring the advice of all 
Federal agencies and stakeholders, and address our economic 
security needs.
    I look forward to hearing from our witnesses on how the 
Administration is meeting these objectives and addressing our 
broader language needs in both the short and long term. Only 
through a coordinated plan of action and long-term leadership 
will we accomplish our goal.
    I now turn to my good friend, Senator Voinovich, for any 
opening statement he would like to make. Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Senator Akaka. I congratulate 
you on being the Chairman of this Committee.
    Chairman Akaka. Thank you.
    Senator Voinovich. Senator Akaka and I worked together for 
many years, and working together I am very proud that we have 
made the most significant changes in the Title 5 of the U.S. 
Code since 1978, with the hope of making our Federal workforce 
competitive and, as Senator Akaka says, the workforce of 
choice.
    We are very concerned about U.S. competitiveness, and we 
know that this subject today, ``Lost in Translation,'' is a 
very serious issue and it has been kicking around for some time 
and we are going to hopefully bring it to a head and make some 
progress with it.
    I want to thank all of the witnesses for joining us today. 
I am especially pleased to welcome back Diane Birckbichler, who 
is joining us from Ohio State University, my law school alma 
mater. Dr. Birckbichler chairs the Department of French and 
Italian and is also Director of the OSU Foreign Language 
Center, which I am proud to note comprises one of the finest 
language programs in the country.
    The OSU Foreign Language Center includes the Chinese 
Flagship Program, one of only nine advanced programs in the 
Nation devoted to advanced instruction in critical languages. 
This program is funded by the Department of Defense National 
Security Education Program.
    In September, I was pleased to announce a Federal grant 
which will allow the Chinese Flagship Program to develop a 
statewide system in Ohio of Chinese K-16 language programs 
which will serve as the national model for State school 
systems.
    I was saying, Senator Akaka, to Dr. Birckbichler that I 
have seven grandchildren, and I want to know about the 
available language programs in Chinese because I would like 
them to begin their language instruction early on.
    The significance of foreign language skills to our national 
security was emphasized after the terrorists attacks of 
September 11. I must say that I was outraged when it was 
announced that the U.S. Government needed people that could 
speak Farsi and Arabic.
    I was the Chief Commanding Officer of the Ohio National 
Guard during Desert Storm. I would have thought that 10 years 
after we were engaged in that effort that we would have been so 
much farther ahead. Somebody in Washington, the State 
Department, or Defense Department, should have realized, ``Hey, 
we better get some people that know Arabic and Farsi.''
    In response to that, Senator Akaka has pointed out that 
this Subcommittee held a series of hearings on the needs of our 
intelligence workforce, and we did pass the Intelligence Reform 
and Terrorism Prevention Act of 2004.
    The legislation was aimed at improving the Federal 
Government's ability to recruit and train skilled translators 
and linguists to meet our national-security needs.
    Several years later it is appropriate for Congress to take 
stock of these efforts and monitor progress. At the same time, 
the need to expand our knowledge of foreign languages, cultures 
and regions extends well beyond the critical needs of our 
national security force.
    Without an educated applicant pool of Americans proficient 
in critical foreign languages, we cannot meet the needs of our 
21st Century workforce, nor can we maintain America's position 
as a global leader.
    One of the things that I keep talking about is that we are 
in this unbelievably competitive environment and what we should 
be doing is building the infrastructure of competitiveness so 
that our children and grandchildren will be able to have the 
same opportunities for our high standard of living. One of 
those tools for competitiveness has to do with developing 
foreign language skills.
    According to the 2000 census--well, Senator Akaka gave you 
the statistics on that. I will not repeat them.
    Being able to share a spoken language means so much. I 
speak [In Russian], and that is about all I can say. But it is 
amazing to me when I travel abroad how flattered foreign 
citizens are to even hear a few words of their native language. 
It is a way of letting them know that you think enough of them 
that you have made an effort to study Serbo-Croatian or Russian 
or whatever.
    I can imagine how much richer interpersonal connections 
would be if we had more people that could speak foreign 
languages. Even a lot of our people that represent us in the 
State Department conduct U.S. affairs in countries and cannot 
speak the language.
    The need for improved language skills is not an abstract 
deliberation. In order to maintain our competitive business 
edge and keep our country safe, Americans must learn to be 
global citizens and communicate effectively with other peoples 
around the world.
    I am deeply concerned that Americans are lagging behind 
much of the world in crucial and critical foreign language, 
cultural awareness, and geographic knowledge. This lag can 
negatively impact our Nation in real ways, such as losing 
valuable business opportunities overseas, and the competition 
is keen; faulty intelligence from failing to properly translate 
critical documents; or a misunderstanding in diplomatic 
communications.
    We had a recent hearing before the Foreign Relations 
Committee and we were talking about troops operating in 
Baghdad, and basically one of the witnesses says, ``These are 
cabinieri,'' policemen in the neighborhoods.
    And if they are going to be good cabinieri, they should be 
able to speak the language; yet most cannot. And people get 
information and they are not sure just what they are getting 
and whether the translation is accurate and so forth.
    It pains me to consider whether we could have been more 
successful in winning the hearts and minds of people in Iraq, 
preventing an insurgency had U.S. soldiers and diplomatic 
personnel on the ground been able to communicate more 
effectively in Arabic with Arab citizens. Senator Akaka pointed 
out the statistics about how few people over in our embassy 
there can speak fluently. Can you imagine how successful we 
could have been if our soldiers could speak directly with the 
foreign citizens they are trying to protect and did not have to 
rely on translators?
    Our success in public diplomacy has also been limited. The 
image of the United States abroad is at stake and is lower than 
any point in recent history. Just look at the studies by the 
Pew Foundation. We sorely need to improve our ability to 
communicate and connect with foreign audiences and explain 
American identity, values, and ideals.
    This country needs language and cultural expertise more 
than ever before to combat the pervasive negative 
misconceptions about America that have been created and spread 
by our enemies in certain critical regions around the world.
    I think the President understands this, and I commend him 
for taking action by establishing the National Security 
Language Initiative. I look forward to learning more about the 
initiative from our first panel.
    Each of us are gathered in this room today because we know 
that raising the national level of foreign language proficiency 
is absolutely critical to ensuring American national security 
and economic vitality.
    I look forward to a productive conversation about our 
national strategy for achieving those goals, and I thank the 
Chairman so very much for holding this hearing.
    Chairman Akaka. Thank you very much, Senator Voinovich.
    At this time I want to welcome to the Subcommittee our 
witnesses, Michael Dominguez, Principal Deputy Under Secretary 
of Defense for Personnel Readiness at the U.S. Department of 
Defense; Holly Kuzmich, the Deputy Chief of Staff to Secretary 
Spellings at the U.S. Department of Education; and Everette 
Jordan, Director of the National Virtual Translation Center.
    As you know, it is the custom of the Subcommittee to swear 
in all witnesses, and so I would like to ask all of you to 
stand and raise your right hand.
    Do you swear that the testimony you are about to give to 
this Subcommittee is the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Dominguez. I do.
    Ms. Kuzmich. I do.
    Mr. Jordan. I do.
    Chairman Akaka. Thank you. Let it be noted in the record 
that the witnesses answered in the affirmative.
    Mr. Dominguez, you may now proceed with your statement.

  TESTIMONY OF HON. MICHAEL L. DOMINGUEZ,\1\ PRINCIPAL DEPUTY 
  UNDER SECRETARY OF DEFENSE (PERSONNEL AND READINESS), U.S. 
                     DEPARTMENT OF DEFENSE

    Mr. Dominguez. Thank you, Mr. Chairman and Senator 
Voinovich. I am pleased to be able to appear before you today 
to discuss the actions the Department of Defense is taking to 
address the need for greater foreign language capability both 
in our force and, through our involvement in the National 
Security Language Initiative, in the Nation as a whole.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dominguez appears in the Appendix 
on page 39.
---------------------------------------------------------------------------
    My written statement goes into some detail about these 
actions and I request that be entered into the record.
    Chairman Akaka. It will be included in the record.
    Mr. Dominguez. Thank you, sir. Some of the actions we have 
taken, for example, are we made organizational and policy 
changes to support foreign language improvement for the long 
term. We reoriented our training to focus on the languages 
critical to our success today and important for the future, 
languages such as Arabic, Chinese, and Pashto.
    For the first time we are conducting an assessment of the 
language proficiency of our military and civilian personnel, 
and we have increased our payment for maintaining those 
language skills to encourage identification, sustainment and 
development of those languages.
    We are providing just-in-time basic instruction in language 
and culture to our forces before they deploy. Our military 
academies are expanding language programs, and we are expanding 
the number of foreign area officers, our top-level 
professionals who possess not only foreign language but 
significant regional expertise.
    But a very important point I wish to underscore today is 
the Defense Department cannot meet the full set of our national 
security needs solely though a strategy of teaching language to 
people after they have joined us.
    We believe that this country, which supplies us with the 
people that we need, needs to rededicate itself to the study of 
foreign languages so that people arrive in our workforce 
already equipped with those skills.
    A large part of our effort, therefore, has been reaching 
out to universities, school systems and our sister Federal 
agencies and to the American population to stimulate progress 
in this area.
    In January 2006, the President announced the National 
Security Language Initiative, in which we joined with the 
Department of State, Department of Education, and the Office of 
the Director of National Intelligence in crafting an ambitious 
national agenda designed to increase the number of Americans 
speaking critical languages at advanced levels.
    The Department committed funds in its fiscal year 2007 
budget in support of our part of NSLI, and we embraced the 
initiatives as part of our Quadrennial Defense Review.
    With the support of our Defense Oversight Committees, I am 
pleased to say that DOD is progressing toward the objectives 
the President set for us in NSLI. Our partner agencies were not 
so well supported, and those proposals deserve the Congress' 
support and funding.
    Mr. Chairman, we appreciate your interest in this important 
area so vital to our national security and our future economic 
development. Thank you.
    Chairman Akaka. Thank you for your statement. Ms. Kuzmich, 
please proceed with your statement.

TESTIMONY OF HOLLY KUZMICH,\1\ DEPUTY CHIEF OF STAFF FOR POLICY 
  AND PROGRAMS FOR SECRETARY OF EDUCATION MARGARET SPELLINGS, 
                  U.S. DEPARTMENT OF EDUCATION

    Ms. Kuzmich. Thank you, Mr. Chairman and Senator Voinovich. 
Thanks for the opportunity to testify on behalf of the 
Department of Education regarding our efforts to improve the 
Nation's foreign language education, especially in critical-
needs languages.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Kuzmich appears in the Appendix 
on page 61.
---------------------------------------------------------------------------
    You both talked about the critical needs that we have, so I 
am not going to get into details on that. I am going to focus 
on the things that we have done at the U.S. Department of 
Education to start supporting foreign language education and to 
work with our sister agencies.
    When the Administration announced the National Security 
Language Initiative in January 2006, it included $57 million in 
initiatives at the Department of Education, and very briefly, 
we had five different requests as part of that.
    The first was a $24 million request for the Advancing 
America Through Foreign Language Partnerships Program to allow 
for the creation of continuous programs of study of critical-
need languages from kindergarten through university. This 
program was modeled after the successful program at the 
Department of Defense that they have started, their K-16 
pipeline model.
    We also included $24 million for the Foreign Language 
Assistance Program, which provides incentives to school 
districts and States to offer instruction in critical-need 
foreign languages in elementary and secondary schools around 
the country.
    Because we also know, obviously, critical-need language 
programs and language programs in general mean we need a supply 
of teachers, we included $5 million for a Language Teacher 
Corps, which would provide training to college graduates and 
professionals with critical-need language skills who are 
interested in becoming foreign language teachers.
    We also included $3 million in funding for the Teacher-to-
Teacher Initiative to provide intensive summer training 
sessions and online professional development for foreign 
language teachers and $1 million for a nationwide E-Learning 
Clearinghouse to help deliver foreign language education 
resources to schools, teachers, and students across the 
country.
    This clearinghouse would provide a central repository for 
schools, teachers, and the general public to find materials and 
web-based programs and language programs from our National 
Resource Centers, K-12 instructional programs, institutions of 
higher education and agencies of the Federal Government.
    While continuing to advocate for additional appropriations 
for NSLI, we have also leveraged our existing foreign language 
programs, and one of those examples is the Foreign Language 
Assistance Program at the U.S. Department of Education.
    During our 2006 grant cycle, we proposed to develop 
projects that would establish, improve or expand foreign 
language learning in grades K-12 in one or more of the 
critical-need languages.
    Of the 70 grants we made to school districts last fall, 57 
address one or more of the critical-need languages for a total 
of $32 million. We also gave four grants to States around the 
country, and three of those address critical-needs languages.
    Also, during fiscal year 2006, the Department conducted a 
series of summer workshops through its Teacher-to-Teacher 
Program to promotes best practices for foreign language 
instruction with an emphasis on critical-need languages.
    We brought together over 500 educators to share best 
practices in two workshops, one in California and one in 
Virginia, focused on Mandarin Chinese.
    In the summer of 2007, we will expand the number of 
workshops for foreign language teachers to four and the 
languages will be focused on both critical-need languages and 
commonly-taught languages in an effort to expand our reach.
    Another way the Department is able to improve language 
skills is through our Title VI Programs of the Higher Education 
Act, the National Resource Centers where we are providing 
incentives for them to reach out to the K-12 community.
    NRCs are funded in a variety of world areas including 
Central Asia, South Asia, the Middle East, East Asia, Southeast 
Asia, Central Europe, Eurasia, Africa, and Latin America. And 
in fiscal year 2006 we encouraged our grantees to consider the 
NSLI goals as they launched their new projects.
    In addition, the Department is undertaking a comprehensive 
review of our Title VI Programs, our largest foreign-language 
investment, to make sure they are meeting their purpose and 
adequately preparing Americans for public service.
    We also have a new program at the Department of Education 
called the National Science and Mathematics Access to Retain 
Talent Program, which we call the National SMART Grants. And 
these provide an additional $4,000 to third and fourth year 
Pell-eligible students to major in math, science, and critical 
foreign language. And that is an exciting new program that we 
have got going in the past year.
    Most recently, Secretary Spellings along with Assistant 
Secretary of State Dina Powell returned from leading a 
delegation of U.S. university presidents, including the 
President of Ohio State, on a three-country Asian tour to 
highlight the United States as a premier destination for study 
abroad.
    That trip was a direct outcome of our January University 
Presidents Summit that we hosted with the Secretary of State 
where the President announced the National Security Language 
Initiative.
    In closing, NSLI has produced a unique collaboration among 
Federal agencies. Having reached agreement on the importance of 
foreign language acquisition and the goals of this initiative, 
the agencies are working in a coordinated way to allocate 
needed resources and implement the initiative, with each agency 
concentrating on those activities and programs that best 
utilize its existing expertise and relates to its individual 
mission.
    Thank you, and I would be happy to answer any questions.
    Chairman Akaka. Thank you very much. Mr. Jordan, will you 
proceed with your statement.

TESTIMONY OF EVERETTE E. JORDAN,\1\ DIRECTOR, NATIONAL VIRTUAL 
 TRANSLATION CENTER (NVTC), ON BEHALF OF THE FEDERAL BUREAU OF 
                         INVESTIGATIONS

    Mr. Jordan. Thank you. Good afternoon, Chairman Akaka and 
Senator Voinovich. It is good to be here. I thank you for the 
opportunity to speak to you about the National Virtual 
Translation Center, which I am going to refer to as the NVTC 
for the rest of my comments and discuss how we are assisting 
the U.S. Government in meeting the translation needs and 
requirements that are coming at us.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Jordan appears in the Appendix on 
page 68.
---------------------------------------------------------------------------
    The NVTC was established 4 years ago through the House 
Intelligence Authorization Act to create a cadre of translators 
available anytime around the United States who could handle the 
overflow of information from the U.S. Government.
    We were here to augment existing resources and also build 
the pool, make it get bigger and find the methods to do that, 
use the possible means of training that is there, as well as 
take advantage of people who do have skills already who are 
perhaps leaving the government or maybe between jobs with good 
skills but perhaps located outside of Washington, DC, and put 
them to work, moving the work to the translator versus trying 
to bring the translator to the work.
    We were told to do a new thing in a new way. We were told 
to be relevant, innovative, and creative, and we tried to do 
that in putting the NVTC together.
    We are an interagency organization made up of members of 
the intelligence community at the leadership level whose job it 
is to work as a business, a small business of the government, 
if you will, in that we have to generate a client set, generate 
a provider set, generate revenue and turn out a product. So we 
are not like most government organizations.
    We function to develop new policies, procedures and systems 
for managing NVTC translation requirements and services. And we 
have created a virtual information sharing architecture that 
connects the translation tasks, the language resources and 
linguists anywhere in the United States. We are seeking to 
identify and utilize translation resources from the U.S. 
Government, academia and private industry.
    For instance, as a method of ensuring that the vital 
language applicants to government agencies can be used while 
their clearances and background investigations are taking 
place, the NVTC has offered to bring these people aboard and 
get them working on unclassified overflow material from any one 
of its 42 intelligence community customers.
    When the parent agency is ready to bring them on full time, 
the NVTC releases them. This way the resources that the 
government really wants to bring on and maintain are not lost 
for waiting for their clearances or waiting for other accesses.
     This is one of the ways that we are able to not lose the 
resources that we have available to us.
    I would also add that we support continued development and 
fueling of proven human language technologies designed to help, 
process and exploit foreign language data.
    Most important is who we do this for. We do it for the 16 
member agencies of the intelligence community. Those are the 
major agencies. We work for approximately 42 distinct customers 
within that agency set now.
    It is very interesting. They are coming from all around the 
intelligence community and their needs are quite varied, but 
they require language translation skills at the highest level.
    For us the issue is not so much the numbers of people; it 
is an issue of quality. And the quality comes through training, 
it comes through education, it comes through abilities that 
have been first introduced, been practiced then tested and 
tested again, then applied.
    The NVTC works at the application layer. Our translators 
learn their job as they do it. We provide feedback to them to 
help them improve their skills. We feel that you just do not 
automatically get good translators; you train good translators. 
You work with them.
    The National Security Language Initiative assists us in 
bringing and providing a very good, rich pool of people who 
have the language-skill training, the education from the 
earliest ages on up to college. This is important for us 
because we cannot do our jobs unless the foundation of the 
education has been put there in the first place.
    We partner well with non-government organizations such as 
the American Translators Association and the National 
Association of Judiciary Interpreters and Translators. These 
are groups of people who are all around the country. Some of 
them may not have worked for the U.S. Government before, but 
they are willing to lend their skills to our needs.
    We would use them in the case of our intelligence community 
translations that might be required, but also in the event of 
natural and national disasters that come up where they may be 
able to help locally. We provide information on their 
capabilities and ability to the local agencies that can provide 
that assistance.
    And so we partner with the Interagency Working Group on 
Limited English Proficiency as well as the Red Cross and FEMA 
to make sure that our translators can help end the national 
need. This is one good way to help build and use the entire 
pool.
    We are a member of the Office of the Director of National 
Intelligence and a member of the Foreign Language Executive 
Committee that oversees the process and the progress made 
towards foreign language policy within the intelligence 
community.
    For us it is about partnerships, it is about relationships, 
and trying to make the best use of the resources that are there 
as well as growing the pool for tomorrow's resources, and with 
that, I will close.
    I thank you for your time, and if you have any questions, 
we would be happy to answer them.
    Chairman Akaka. Thank you very much, Mr. Jordan. Thank you 
all for your testimony.
    We will have two rounds of questions. My first question 
goes to Mr. Dominguez. I want to applaud DOD's work to address 
the language needs of the military and civilian workforce in a 
comprehensive manner.
    Despite these efforts, however, the Iraq Study Group Report 
said that there are still too few Arab-language-proficient 
military and civilian officers in Iraq. What is the Department 
doing to address this specific need?
    Mr. Dominguez. Senator, we are doing a lot of things, but 
the first caveat is that it takes a long time to build an 
Arabic speaker if you are starting from scratch, so a lot of 
our effort was associated with not starting from scratch.
    I think the most exciting program that I would like to make 
sure you are aware of is what the Army calls the 09L Program. 
09L is a military occupational specialty that has been granted 
to heritage speakers, the expatriates from the Arab world that 
we are recruiting to bring into the individual ready reserve 
with the prior agreement that they will be mobilized for 2 
years and sent into the combat theater to work with our 
maneuver forces right there.
    That has been a wildly successful program. The volunteers 
for that program love it, the commanders downrange love it. We 
have got contracts to acquire interpreters and get those into 
the fight in support of our troops.
    We do some cultural prep training and some basic language 
survival skills to every unit that is deploying. We try and 
make sure that there are translators so there is reach-back 
capability available to commanders.
    On the other side in terms of just building capacity, we 
have doubled the number of Arabic linguists, people studying 
Arabic at the Defense Language Institute. It is up to about 900 
to 1,000 people a year there.
    More importantly, we have done this inventory of the people 
in our workforce who have self-identified skills. We are now in 
the process of having them tested to see what level of skills 
they have so that we can make that inventory available to meet 
the need in the theater.
    And just looking at that without regard to what skill level 
these people may have, we have more than 8,500 people self-
identified with some level of Arabic speaking skills in the DOD 
workforce, military and civilian.
    Chairman Akaka. Thank you. I just want to note at this 
point that in World War II and particularly in the Pacific, the 
military had what they called an ``MIS,'' which is the Military 
Intelligence Service.
    During that time, MIS trained Japanese-speaking and reading 
troops, and it was very successful partly because many of the 
Japanese in Hawaii knew Japanese, so that did not take that 
long for them to learn. These individuals were deployed out 
into the Pacific, and history tells us that World War II was 
shortened by 2 years because of their work. That is really an 
accomplishment.
    I hope the military would continue this kind of effort: 
That whenever our military action might require language needs 
DOD would set up MIS's.
    I do understand that you cannot teach language skills to 
new troops overnight because you have to train them for other 
things.
    Let me ask the next question to Ms. Kuzmich. State and 
local governments have great latitude in deciding whether to 
include foreign language education in school curricula. What 
can the Federal Government do to encourage foreign language 
education in elementary and secondary schools when 
administrators are focused on meeting the requirements of No 
Child Left Behind?
    Ms. Kuzmich. I think obviously one area where we have 
already been putting a lot of focus on is our Foreign Language 
Assistance Program and putting out model programs across the 
country in foreign language instruction. You are right, the 
Federal Government is only an 8 percent investor in education.
    Chairman Akaka. I should say that you testified on some of 
the programs that are in place now that have been successful.
    Ms. Kuzmich. Correct. And one of the things we are trying 
to do is incentivize through that program not just traditional 
language programs but programs that can be models for other 
districts that will provide online resources for a lot of areas 
where they do not have as much access to foreign language 
education.
    One of the things we know is a school cannot teach foreign 
language if they do not have the teachers to teach it, and so 
that is partly why we are proposing the new Language Teacher 
Corps and the new E-Learning Clearinghouse to be able to have a 
central repository for a lot of the instructional materials 
that are being developed across the country, especially in some 
of these critical-need languages where there are not a lot of 
resources and a lot of--district officials who are interested 
in expanding programs in their community do not know where to 
go to find them.
    The other thing we are doing through our continued growth 
in Teacher-to-Teacher is showing schools how to do foreign 
language programs in their schools at the same time that they 
are focusing on reading and math, which are obviously the goals 
of No Child Left Behind.
    Chairman Akaka. Thank you.
    Mr. Jordan, you said that most of the members of the 
intelligence community rely on linguists in their own agencies 
first and that NVTC linguists are usually used when there is a 
critical overload of intelligence, a tight deadline, or a 
specific language need.
    Mr. Jordan. Yes.
    Chairman Akaka. Based on the requests you have received, 
which agencies seem to have the greatest need for linguists in 
their own agency?
    Mr. Jordan. Right now we have both the National Security 
Agency and the Department of Defense, those are the ones that 
are greatest by work that comes to the NVTC, by far and away 
the greatest need. Next comes the CIA, and they send a lot of 
material to us that needs to be done in many different 
languages.
    We have found the need to be in 60 languages to date. It 
was not our task to prepare for 60, but we have found through 
our clients calling up asking for translation services it has 
been 60 languages, and the major languages as well as the less 
commonly taught languages in all different shapes and sizes of 
the task itself. This has been a discovery for us from the 
Defense Department as well as the intelligence community.
    The type of language needs that there are do not so much 
conform to what we consider to be Global War on Terrorism 
languages. People who may tend to do harm to this country will 
speak any language they feel like speaking to anyone else, and 
it is up to us to find people with those language skills, at 
the right depth of knowledge, to provide the service back to 
our client.
    Chairman Akaka. I would ask you about NVTC's capacity in 
foreign languages. Would you be able to teach or translate any 
language that is spoken or are you limited to 60?
    Mr. Jordan. No, sir, to the first part. We are unable to 
teach any language that there is. Our job is to respond to the 
question at hand.
    Most of the time, we do pretty well. We are able to find 
people with the right skills. Sometimes finding the people with 
the right skills is not so much a problem with a foreign 
language as it is the English that the person possesses.
    Their English may not be good enough to get information 
into good idiomatic English for our customers, and so we have 
taken steps especially working with the English Heritage 
Language students at Georgetown and also at the University of 
Washington, Seattle, to help them improve their English. As 
they translate from the foreign language, we provide feedback 
and guidance to them as to ``this is better put in English this 
way.''
    It is a way of trying to build the entire workforce from 
the native speaker's standpoint as well as the non-native-
learner's standpoint.
    Chairman Akaka. Thank you. Mr. Voinovich, do you have 
questions?
    Senator Voinovich. Thank you. As I mentioned in my opening 
statement, improving the Federal Government's ability to meet 
its human capital needs has been one of our top priorities of 
this Subcommittee. And over the past several years, Senator 
Akaka and I have worked together to produce significant reforms 
of the Federal workforce.
    Do you currently have the flexibilities you need to go out 
and recruit individuals to come to work for you in this area or 
are you thwarted by not having the flexibilities?
    Mr. Dominguez. I will start. I think that our flexibilities 
will be enhanced as we begin deploying or continue deploying 
the National Security Personnel System, because there are 
flexibilities that were incorporated into that legislation.
    But I believe the other activity we have is through the 
National Security Education Program where people go in and get 
advanced skills in language and then come back seeking service 
in the Federal Government as part of a program design. I think 
that is of great benefit to us as well. So I do not know of 
actually any impediments that would keep us from hiring 
somebody.
    There are some problems we are working with the 
intelligence community on with regard to getting people their 
clearances because people, particularly either heritage 
speakers or people who have studied abroad, pose problems to 
the traditional way the intelligence community would view them 
in terms of being able to validate their security risk. But we 
are working through the intelligence community with that right 
now. It is a shared goal of streamlining that process.
    Senator Voinovich. In other words, let us say that you are 
out there looking for people to come to work for the State 
Department or the Department of Defense. Can you go out into a 
university, for example at Ohio State, and look at some 
exemplary students there maybe in their sophomore year and say, 
``We really like you and we would like you to think about 
coming to work for the Federal Government when you graduate,'' 
and offer them any kind of incentives, say internships, so that 
when they get out of school, they will go into your agencies?
    Chairman Akaka. Mr. Jordan, you want to answer that from 
your perspective?
    Mr. Jordan. I also liked the first question too. As far as 
recruiting, we try to go to the professional organizations and 
go to their conferences where they have a lot of people who 
have high-level skills that we are looking for.
    Also, one of the hindrances to us is the U.S. citizenship 
requirement in that we are required to only hire U.S. citizens. 
Some of the people who could provide services to us may not be 
U.S. citizens and some of the material I need to have done is 
open-source unclassified material that they may do from home.
    And so one of the impediments we have right now to really 
opening up an entire--like 200,000 to 300,000 more people is 
the citizenship requirement. Yes, of course, we would put them 
through checks to make sure that they are who they say they 
are, and we would also test their language skills, but I would 
very much like to be able to use that pool as well.
    Senator Voinovich. Are you precluded from hiring non-
citizens? Is it just a matter of security?
    Mr. Jordan. At this time we are precluded from using them 
because the requirements put on us is that all of our employees 
must be U.S. citizens.
    Chairman Akaka. Is that in the law?
    Mr. Jordan. That is directive guidance from I guess in this 
case would be our executive agent who is the FBI.
    I need to be reminded on the second part of the question. I 
want to make sure I have that right. The second part of your 
question, sir?
    Senator Voinovich. Are you able to bring them in, and do 
you have a strategic human capital plan in place that you are 
following right now?
    Mr. Jordan. Yes, we do. We have put together a strategic 
plan which we delivered to the Director of National 
Intelligence as to how we will reach out around the country and 
go into universities and work with actually the students in 
particular, to send them open-source unclassified material 
whereby as part of their classroom environment, they can work 
on material that is real-world that requires translation and 
return it to us.
    The students work on it, the teacher grades it and sends us 
back a completed copy. The student gets college credit for it, 
but moreover, they get experience and exposure to our 
standards, our quality issues, deadlines, time lines, methods 
of doing this.
    It does not matter to us so much where they go to work when 
they graduate, but we are satisfied that they know how to do 
translation work, that they understand the higher use of 
language as it will be required by the U.S. Government.
    We are very pleased with that approach. It is called the 
Virtual University Translation Network, and we have been at it 
for about 14 months now with universities around the country. 
Kent State is one of the universities. My colleague, Galal 
Walker, over at Ohio State, he and I have talked about it a 
bit. He has the Chinese Flagship Program there.
    I am also happy [in Russian] earlier, so thank you.
    Senator Voinovich. Thank you. We had the General 
Accountability Office's report in 2002 and they talked about 
five agencies which could use human capital strategies to 
address staffing and proficiency shortfalls, and that was the 
Department of State, the Army, the National Security Agency, 
the Foreign Commercial Service, and the Federal Bureau of 
Investigation.
    Is there now a written plan in each of the agencies to 
increase foreign language skills? If we asked you to come into 
our office and sit down and show us your plans that agencies 
put in place as a result of the GAO report, would we be able to 
see what kind of progress that you have made in those agencies 
to implement the plans?
    Mr. Jordan. Although I do not speak for the FBI, I can tell 
you that the FBI representatives would be able to come in and 
speak to you about the plan that they have put together.
    Senator Voinovich. I think really it is important that 
strategic plans have measurable benchmarks that allow you to 
measure if progress is being made.
    The other thing that came to my mind as you all three are 
here sitting at the table is whether your agencies get together 
to look at the big picture and see whether there is any 
duplication and how you could coordinate better with your 
respective responsibilities?
    Ms. Kuzmich. We have. I will take that first. Obviously, in 
putting together the National Security Language Initiative, we 
started meeting the Departments of Education, State, Defense, 
and the Director of National Intelligence most directly have 
the pieces of the National Security Language Initiative.
    But we started meeting almost 2 years ago and included even 
other agencies within that to look at what programs do we 
currently have at our agencies, where do we need to expand our 
efforts and that is how we came up with our initiative, and why 
at the Department of Education we are so focused on starting 
the pipeline of getting speakers earlier so that when they 
enter higher education they have already got a base of language 
knowledge and can be proficient when they graduate and meet the 
needs of the workforce in the Defense and State Departments.
    Senator Voinovich. So the lightbulb went on and you said, 
``Look if we are going to do this, we better get the Department 
of Education and see if we cannot start working with them 
because we are going to need the teachers and we are going to 
need the students, and we better start early and we are looking 
at the long-term picture.''
    I would like you each to comment on if you had a magic 
wand, what additional things could you be doing that you cannot 
do currently because of resources?
    And right now, Senator Akaka, we have this Continuing 
Resolution. I just cannot believe it, because when I was a 
mayor and a governor, if you did not pass the budget in your 
appropriations, people would have recalled you. Yet here we are 
in January and we are talking about a Continuing Resolution, 
which from what I am picking up more and more from agencies is 
really putting everybody in kind of an uncertain position about 
whether or not they are going to be able to go forward with 
their priorities.
    But that being said, if you want to comment on it, you can, 
and if you are unwilling to do that, I would like to know, if 
you had your druthers, if you really wanted to do the job that 
you would like to do, what resources would you need to make a 
difference or do you feel that you are adequately funded right 
now to get the job done?
    The point is that so often we ask agencies to do things, 
and then you do not get the resources to do them. And I am just 
really interested to know, if you really wanted to increase 
foreign language proficiency at your agencies and said, ``This 
is something that really is needed,'' do you have the resources 
currently to get that job done?
    Mr. Jordan. Senator, let me leap in and say from the 
Defense Department's point of view, I think we have made an 
enormous effort and got enormous support from the Congress for 
these resources.
    Where I would say the marginal addition ought to be is the 
Department of Education needs to take those K-16 pipelines and 
expand them all over the country. The plan was for them to be 
able to get to 100. I do not believe, and Ms. Kuzmich will be 
able to address that, but I do not know that they will be able 
to do that under a continuing resolution.
    We need forums like this where we focus the national 
attention on this challenge, and we need our business leaders 
engaged in putting this on the agenda so kids know this is 
important to them so they should study this because that is 
where the jobs will be.
    So I think we are doing what we can. I really am concerned 
about the support my partner agencies need for the creative, 
imaginative concepts they have come up with and our business 
community is still not heavily engaged in the discussion.
    Senator Voinovich. Have you ever brought this up with the 
National Business Roundtable?
    Mr. Dominguez. We are planning this year to do conferences 
regionally around the flagship universities where we bring in 
local governments and local businesses, again to start 
generating some demand pull from that community.
    Senator Voinovich. Ms. Kuzmich.
    Ms. Kuzmich. You are right, Senator, we are under a 
Continuing Resolution, so obviously we are doing as much as we 
can with the programs we have right now. It would help if we 
were able to get funding for the pieces we had included in our 
budget last year.
    But I do think we are doing a lot of other things with the 
higher Education and K-12 community because we are a small 
piece of the education funding stream in America. In colleges 
and universities we have been working with our Title VI 
institutions.
    As I said, Secretary Spellings led a delegation of 
university presidents. We have been encouraging them to think 
more strategically about where they are focusing their dollars 
and what programs they are spending them on. So I think it is a 
partnership there.
    Senator Voinovich. Any other comment, because I am running 
out of my time.
    Mr. Jordan. Also on funding, it would be fantastic for 
sustained, long-term funding across fiscal years would be very 
good because short-term, one-year money does not always help us 
put the programs together that we need for the long-term 
outcome.
    Working with the business community, I have found in my 
discussions with Boeing and also with Disney, a lot of the 
times they just reach out to a local company who may be able to 
provide services, and the training of their executives has been 
of secondary concern in that they did not necessarily see the 
need to train their executives because they would only be in a 
country for 2 or 3 years and then out.
    So spending 2 or 3 years to teach them the language then 
putting them there for a short period of time was not 
necessarily as cost-effective as just hiring local assistance.
    One of the problems that we have in getting the buy-in from 
the business community is for them to see the vision, for them 
to see how it is important to have that very good language 
capability within their own staffs and to take the time to 
develop their workforce that as they go either nationwide or 
internationally that they are able to reach out and do business 
in certain communities and at the government leadership level 
wherever with people who are skilled and are trained and are 
comfortable with the language skills.
    So this is a challenge still to us we engage regularly, and 
they do come to our conferences now because they see that 
language is something not just easily done. It takes time, it 
takes study, it takes education and practice.
    Senator Voinovich. Thank you.
    Chairman Akaka. Thank you very much, Senator Voinovich. I 
would like to direct this question to Mr. Dominguez. Last year 
David Chu, the Under Secretary of Defense for Personnel and 
Readiness, invited the Chief Human Capital Officers to join DOD 
in building the Language Corps.
    In what ways has OPM, as well as the CHCO Council, been 
involved in working with Federal agencies to address the 
Federal Government's foreign-language needs?
    Mr. Dominguez. Other than the discussions that Mr. Chu has 
with the Chief Human Capital Officers and the staff dialogue 
that we have with several agencies about this Language Corps 
that we are trying to build, the Civilian Language Reserve 
Corps, I do not know of anything concretely.
    One of the problems that you run into here is that outside 
of the intelligence agencies there are some narrow positions in 
the DOD. Civilian jobs in particular are not written as they 
must require this language skill, and so unless it is an 
interpreter or an intelligence analyst or something, that skill 
is not really a big piece of the way agencies viewed their 
missions in the past.
    Now as we engage and support each other, interagency 
support, to be able to reach out and do the kind of work that 
is required in places like Afghanistan, Iraq, and the Horn of 
Africa, where you are helping locals establish the rule of law 
and build institutions to deliver services to people and create 
credibility and we need to then tap into those skills.
    Then language is an additional duty requirement, but it was 
not what we hired the person for and you will not find it in 
the position description. So we are working through those 
challenges now of trying to find out how to define the 
requirement in our workforce for languages.
    I think we are going to end up moving away from position-
based and more to inventory. We need a bunch of petroleum 
engineers who also can speak Farsi and we need to find 
mechanisms to reach out and grab them from their full peacetime 
jobs and engage them when we need them when a provincial 
reconstruction team is being assembled by the State Department 
to help one of our partner countries.
    So there is a lot of talk and dialogue in trying to figure 
out how to do this, but there is some heavy lifting yet in 
front of us on this.
    Chairman Akaka. My reason for asking that is to find out 
whether there were ways in which these agencies and departments 
coordinated their efforts of trying to find language speakers. 
Let's say, OPM gets a request from DOD that it needs a certain 
kind of language. Could OPM reach out into the Federal 
workforce and find someone to help DOD temporarily?
    Mr. Dominguez. Right. Senator, we are trying to build that 
kind of capability within the Defense Department, and we are in 
dialog with our partner agencies on those same kind of 
capabilities.
    Again, the provincial reconstruction teams that are part of 
the President's strategy in Iraq, for example, are very 
definitely interagency challenges, and so we will need these 
kind of capabilities.
    Chairman Akaka. And that speaks to what you said that often 
you do not have people and you do not have the time to teach 
them.
    Mr. Dominguez. Right.
    Chairman Akaka. If you have somebody in the workforce in 
other places that may be able to do that.
    Mr. Dominguez. Absolutely.
    Chairman Akaka. Now, let me ask you another question, Mr. 
Dominguez. I thought the white paper was extremely effective on 
laying out the critical steps needed to address the Nation's 
shortfall on language skills.
    The first recommendation calls for strong and comprehensive 
leadership; specifically, a national language strategy to be 
developed and implemented by the National Language Director and 
for a Coordination Council to coordinate implementation of the 
strategy.
    Do you agree with this recommendation and is such a 
leadership structure in place today?
    Mr. Dominguez. Senator, I agree that this is an interagency 
challenge, that the Federal Government has to work together. As 
I have said, I want the Department of Education's programs to 
succeed, so that is an illustration of how important the 
interagency aspect of it coordinated across the Federal 
Government action.
    Now, I believe that we are doing those things. We are 
talking to each other. We are working together so whether it is 
the Chief Human Capital Officers talking about how to get 
language capabilities into the Federal workforce or it is the 
people who are working the National Security Language 
Initiative coordinating their activities, those kind of 
activities are on-going.
    This white paper did a great thing in being the cause to 
bring us together to begin those discussions to begin 
aggressively working together.
    I would not, however, accept that one way to do it is the 
only way to do it. They offered a structure, but that is only 
one way to get the job done. The important thing is the 
outcome, the achievement, agencies working together and moving 
the Nation forward that way. I believe that is happening.
    Chairman Akaka. Can you tell me who is in charge of NSLI?
    Mr. Dominguez. I would say it is a collective 
responsibility monitored by the Domestic Policy Council that 
the President has assembled would be my answer to that.
    Chairman Akaka. And finally, before I turn to Senator 
Voinovich, Mr. Dominguez, what steps are being taken to sustain 
and institutionalize continued leadership in language education 
in future administrations to look ahead?
    Mr. Dominguez. Sir, at least in the Defense establishment, 
we have identified senior language authorities across the 
Defense Department, and there is one in my shop.
    This will be a long and continuing and compelling need in 
the national security business. So we are not going to stop 
screaming that this country has to take language seriously and 
we have to take language seriously because it is a critical 
skill now to success on the battlefield.
    Chairman Akaka. Thank you very much. Senator Voinovich.
    Senator Voinovich. I would like you to go back to your 
respective offices and give me a list of things that, if we 
could do them, it would enhance your ability to do what we are 
asking you to do with the idea that there are some things that 
Senator Akaka and I can do in this Subcommittee to help you.
    For example, this citizenship requirement, I think that is 
something we ought to look at.
    I would assume that the fact that we are doing such a lousy 
job on security clearances is also a problem? What bothers me 
is a Federal agency hires somebody to come in and work, but 
then they say to that individual, ``Hey, you cannot go to work 
until you get your clearance.''
    And security clearances have been on the GAO High Risk List 
now since 1990, and our Subcommittee is trying to work on that. 
But the neat thing is that it appears that, at the NVTC, you 
are able to provide temporary employment to language skilled 
individuals while they await their clearance.
    Is there kind of like Defense wants to hire an individual 
but must wait until he or she has the proper clearance, and do 
you then find translation work for them at NVTC so we can at 
least utilize them in the meantime?
    Because if I am going to hire somebody and then I tell 
them, ``I am sorry, but you really cannot go to work for 6 
months,'' they say, ``Bye.'' Is that going on now?
    Mr. Jordan. This is in its very early stage, meaning within 
the last 4 weeks that we decided to do this. It is all quite 
informal. We would call and ask.
    So far the NVTC has approached one of the major agencies to 
see if this is possible and that agency says, ``Yes, it is very 
possible.'' We just happen to do it because we are in the 
language business.
    The same may be possible with analysis or any other type of 
skill that the government needs that can be done not 
necessarily onsite. It can be done in an area whereby you send 
the information in, you start training the people in the 
skills. So right now it is quite informal but it is quite 
possible.
    Senator Voinovich. I would like you to think about it and 
get back to me on it because I think that this might be a way 
of saying to somebody, ``OK, we cannot put you on the payroll 
yet, but we can temporarily employ you at MVTC where you can 
work on translating and you have got a job.''
    Mr. Jordan. This is possible, yes, definitely.
    Senator Voinovich. That way, an individual will be there 
while we try to adjudicate their security clearances.
    The other thing that I am interested in is, for example, 
Ohio State has a great language program. Does this type of 
consideration impact where you focus your K-12 efforts?
    In other words, we have an emergency here. I keep thinking 
about how do we get this going, and are you looking to States 
where you have got low-hanging fruit? In other words, you have 
good language universities, so that kids can have incentive to 
study language in primary and secondary school and they know 
they can continue at the university level.
    Ms. Kuzmich. I think one of the biggest areas where we 
would like to expand that my colleague talked about is this K-
16 partnership model that the Department of Defense has 
started.
    We know that, I think, learning lessons that they have 
already learned, the places we would most likely go first are 
our strong Title VI centers, our flagship programs where they 
have significant capabilities already at the higher education 
level to start pushing those language programs down into the K-
12 level.
    So we have always talked to that community and we know they 
would be most likely to be the first ready to sign up and able 
to push these programs farther down.
    Senator Voinovich. I understand DOE did not budget money to 
conduct your survey of foreign language education.
    Ms. Kuzmich. The Clearinghouse?
    Senator Voinovich. Yes. I guess you did not get any money 
in 2006.
    Ms. Kuzmich. We are under a CR.
    Senator Voinovich. OK. You think that is important, we 
should fund that so you have got a baseline to know where you 
are starting from.
    Ms. Kuzmich. Yes.
    Senator Voinovich. But the point I am making is, can you 
look at the schools that are really doing a terrific job, and 
say, ``By golly, they are the ones that we ought to really 
start concentrating on right now,'' because the possibility of 
generating fluent language speakers from them is greater than 
just widely distributing resources and saying, ``Well, we are 
going to fund them all.'' Are you doing any of that?
    Ms. Kuzmich. Hopefully if we get additional resources and 
are able to start some of these programs, that would happen 
during our grants process.
    Normally, the way that they have to write grant 
applications is to put down their efforts that they have 
already made and give us the most serious and most capable 
people are usually the ones that rise to the top. So that is 
likely to happen if we get this program funded in the future.
    Senator Voinovich. OK. I think, Senator Akaka, we both have 
a vote.
    Chairman Akaka. Yes. We have 3 minutes left.
    Senator Voinovich. I have no other further questions.
    Chairman Akaka. Thank you very much. Let me say thank you 
to our witnesses, and I want you to know we look forward to 
working with you on improving the foreign language capacity of 
the Federal Government. I want to thank you for your testimony 
this morning.
    I would also like to note for the record that the 
Department of Labor was invited to testify today but declined 
the invitation stating that the Department has not been active 
in reviewing the American workforce language needs or its own 
needs.
    So with that I want to dismiss this panel, and I am going 
to call for a recess of about 15 minutes and we will have the 
second panel when we return.
    Thank you very much.
    [Recess.]
    Chairman Akaka. This hearing will come to order.
    I would like to welcome our second panel, Rita Oleksak, 
President of the American Council on the Teaching of Foreign 
Languages; Michael Petro, Vice President and Director of 
Business and Government Policy for the Committee for Economic 
Development; and Dr. Diane Birckbichler, Director of the 
Foreign Language Center at Ohio State University.
    I welcome all of you. As you know, it is a custom of this 
Subcommittee to swear in all witnesses, and I would like to ask 
you to stand and raise your right hand.
    Do you swear that the testimony you are about to give 
before this Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Ms. Oleksak. I do.
    Mr. Petro. I do.
    Ms. Birckbichler. I do.
    Chairman Akaka. Thank you. Let me start in the order of the 
way in which I introduced you and ask you to proceed with your 
statement. Thank you, Ms. Oleksak.

 TESTIMONY OF RITA OLEKSAK,\1\ PRESIDENT, AMERICAN COUNCIL ON 
               THE TEACHING OF FOREIGN LANGUAGES

    Ms. Oleksak. Chairman Akaka, and Ranking Member Voinovich, 
thank you for the opportunity to appear before you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Oleksak appears in the Appendix 
on page 72.
---------------------------------------------------------------------------
    ACTFL supports the premise you so eloquently stated in your 
letter inviting us to testify: That the national security and 
economic vitality of the United States and the basic career 
security of many American citizens is now tied in large part to 
our foreign language capability.
    We believe this capability is in dire need of 
strengthening. Indeed, the United States suffers from a 
language deficit because our country has failed to make 
language learning an important part of every child's education.
    ACTFL and the language teaching profession support initial 
efforts by the government to address this language deficit 
through proposals made by the Department of Defense following 
its 2004 National Language Conference, as well as their Defense 
Language Transformation Roadmap.
    We also support the President's National Security Language 
Initiative, but the lack of authorizing legislation has 
resulted in an incomplete plan, duplication of efforts, and an 
unequal emphasis on the importance of the initiative within the 
various agencies.
    While the Department of Education has redirected some of 
its existing resources, it, too, does not have the authorizing 
legislation it needs to implement all of the education-based 
activities envisioned by NSLI.
    The initiatives and funding from the Departments of Defense 
and State are welcomed, but for the long term, we do not 
believe that it makes sense for the National Security Agency 
and the Director of National Intelligence to run teacher 
training and summer youth programs.
    Just as the military has its Defense Language 
Transformation Roadmap, we need a similar roadmap for a 
comprehensive and coordinated plan to expand and strengthen 
school-based foreign language education in the United States.
    The goals of achieving a language-trained military and 
language-qualified personnel in embassies around the world will 
fail unless strong support is provided to our Nation's K-20 
foreign language education infrastructure.
    ACTFL offers the following recommendations to strengthen 
the foreign language capabilities of our Nation:
    One, ensure that all languages are supported in our 
educational system, not just the languages that are deemed 
critical for today. Since research supports the notion that 
after learning a second language, a third and a fourth language 
come more easily.
    It is important to support any language that a school 
system considers important for its community and for which 
teachers are available.
    Two, encourage and support the creation of articulated, 
continuous sequences of language courses beginning in the 
earliest grades and continuing through college with immersion 
and language study abroad as key components.
    Three, include funding for the development of a consistent 
program of assessment starting in the earliest grades to 
measure student progress towards proficiency in foreign 
languages.
    Four, since learning a foreign language increases 
performance in other core subject areas, make foreign languages 
truly part of the core curriculum in every school.
    Five, provide assistance to community colleges and 
universities offering specialized foreign language instruction 
focused on combining language instruction with other majors and 
for special purposes such as law enforcement, healthcare, and 
first responders.
    Six, provide incentives to enhance teacher recruitment and 
retention, such as loan forgiveness, and ensure teacher quality 
through teacher education and certification process.
    Seven, require intensive training for teachers recruited 
from abroad so they understand how to teach in American schools 
and provide professional development for teachers currently in 
their classroom on how to incorporate standards-based teaching 
into the curriculum.
    Eight, develop the skills of our heritage language speakers 
by encouraging the continued learning of their native language 
as well as English.
    Nine, fund research into a wide range of areas including 
enrollments, best practices, and longitudinal studies to 
examine the effects of language education on cognitive 
development as well as the academic and career success of 
students.
    And finally, 10, provide funding for public education 
initiatives, such as ``Discover Languages . . . Discover the 
World!'' campaign. Policymakers and business leaders need to 
support efforts to change public attitudes towards foreign 
language learning.
    In summary, we need a coordinated plan and funding of 
Federal legislation to strengthen foreign language education 
and enable us to provide the linguistic capabilities so 
desperately needed by government agencies and the workforce in 
general.
    ACTFL and the language profession stand ready to assist 
Congress in developing this plan in order to achieve a 
multilingual citizenry, thereby strengthening our national 
security and securing our leadership role in a global economy.
    Thank you, Mr. Chairman and Members of the Subcommittee.
    Chairman Akaka. Thank you for your testimony. Mr. Petro, 
you may proceed with your testimony.

 TESTIMONY OF MICHAEL PETRO,\1\ VICE PRESIDENT AND DIRECTOR OF 
BUSINESS AND GOVERNMENT RELATIONS AND CHIEF OF STAFF, COMMITTEE 
                    FOR ECONOMIC DEVELOPMENT

    Mr. Petro. Thank you, Mr. Chairman, Senator Voinovich, and 
Members of the Subcommittee. I want to thank you for inviting 
me to testify at today's hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Petro appears in the Appendix on 
page 87.
---------------------------------------------------------------------------
    I am speaking on behalf of the Committee for Economic 
Development, a nonpartisan public policy organization comprised 
of over 200 business leaders and university presidents 
throughout the country.
    CED has been providing a business perspective on public 
policy issues for almost 65 years. CED was formed in the 1940s 
when our business trustees participated in discussions on how 
to move the country from a wartime to a peacetime economy.
    CED's first policy study became the blueprint for the 
Marshall Plan. In fact, CED's first chairman, Paul Hoffman, CEO 
of Studebaker became the first administrator of the Marshall 
Plan.
    Today what I would like to do is briefly highlight a CED 
study released last year entitled, ``Education for Global 
Leadership: The Importance of International Studies and Foreign 
Language Education for U.S. Economic and National Security.''
    CED has long been a business voice for education reform and 
globalization. From preschool to higher education, CED 
recommendations have called for reform of our school system to 
prepare today's children to become tomorrow's educated 
workforce. CED's work on globalization has called for 
enhancement of education and training of the workforce to 
maintain U.S. competitiveness.
    As we all know, the education reform movement of the 1980s 
and 1990s urged greater focus on standards and accountability 
in our schools, particularly in subjects such as reading, 
science, and mathematics. At the same time, globalization of 
the world's economies has created a host of distinctly new 
demands on our workforce, our citizens, and our students.
    CED is concerned that the recent trend in these two policy 
areas may be pulling us in opposite directions. Full 
participation in this new global economy will require not just 
competency in reading, science, and math but also a proficiency 
in foreign languages.
    In addition, the attacks of September 11, 2001, and their 
aftermath remind us of the need for the study of the less-
commonly-taught critical languages that are crucial to national 
security, such as Arabic, Persian, Farsi, Chinese, Hindi, 
Korean, and Japanese.
    Unfortunately, some school districts have shifted resources 
away from foreign language instruction in recent years in order 
to concentrate on teaching the subjects that require testing 
under No Child Left Behind, and this trend must be reversed.
    The study of foreign languages must figure prominently in 
the overall effort to improve educational outcomes through 
standards and assessment. CED recommends that high school 
graduates should be required to demonstrate proficiency in at 
least one foreign language.
    Meeting this challenge will require a concerted and 
coordinated effort among all levels of government as well as 
the private sector.
    CED recommends an expansion of the foreign language 
training pipeline at every level of education. This will 
require an intensified focus from the Federal Government as 
well as additional resources to support partnerships between 
higher education institutions, State governments, local school 
systems, and the business community.
    Federal language initiatives should encourage States and 
local school districts to implement language programs in 
elementary grades and offer more advanced language classes in 
middle schools and high schools.
    Strengthening the teacher training and professional 
development is another critical factor in improving foreign 
language studies. Higher education institutions should partner 
with State and local education systems to provide professional 
development in foreign language instruction.
    I want to conclude in encouraging coordination among all 
levels of government, higher education institutions, and the 
private sector.
    I want to let this Subcommittee and the folks here know 
that CED is about to launch an endorsement campaign where we 
send letters out and communicate to our 200 trustees asking 
them to publically endorse the CED recommendations. In 
addition, we will ask them to reach out to their colleagues in 
business and get them to publically endorse these 
recommendations.
    This campaign will take a few months, but once this group 
is ready to get together, this partnership, I think, will be 
key in playing a role to continue the support of these vital 
programs.
    So I am here to answer any questions and I thank you for 
inviting me.
    Chairman Akaka. Thank you for your testimony. Dr. 
Birckbichler.

TESTIMONY OF DIANE W. BIRCKBICHLER, PH.D.,\1\ DIRECTOR, FOREIGN 
 LANGUAGE CENTER AND CHAIR, DEPARTMENT OF FRENCH AND ITALIAN, 
                     OHIO STATE UNIVERSITY

    Ms. Birckbichler. Certainly. Chairman Akaka and Senator 
Voinovich, I want to thank you for holding this hearing dealing 
with the Federal Government's efforts to develop our national 
capacity in foreign languages.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Birckbichler appears in the 
Appendix on page 91.
---------------------------------------------------------------------------
    I am also pleased to be part of a panel that represents 
multiple stakeholders in the language learning enterprise, a 
clear indication that cooperation and collaboration are 
essential in our collective futures.
    As already indicated by other people testifying, the 
language profession and the Federal Government have begun to 
respond to the task of preparing a global-ready citizen 
equipped with professional-level language and culture skills.
    Major changes have occurred in our language programs over 
the past several decades that make language learning and 
language teaching more congruent with the goals of this panel. 
Gone are classrooms where students learn through grammar 
translation and through dialogue memorization, a hallmark of a 
popular methodology in the 1960s.
    Today's students learn in classrooms where their 
performance is linked to nationally-accepted norms for levels 
of language proficiency such as the Foreign Service Institute 
or the American Council on the Teaching of Foreign Languages.
    Today's students learn in classrooms where the focus is no 
longer exclusively on literature but has expanded to include 
history, culture, economics and mass media, to give a few 
examples. With increasing frequency, today's students 
participate in longer-articulated sequences of language 
instruction.
    Today's students are encouraged, as our panelists have 
already indicated, to go beyond basic requirements and work 
toward advanced levels of language and culture proficiency 
whether through longer periods of study, intensive language 
courses, or studying abroad.
    This substantial progress that the language profession has 
made owes much to initiatives and programs sponsored by the 
Federal Government, among them the National Security Language 
Institute, Title VI programs that were talked about earlier, 
the National Flagship Initiatives have been essential, and I 
would like to single out the Partnership for Public Service, a 
very successful collaboration of the Federal Government, a 
private foundation and academia.
    In light our new curricula, strong State and Federal 
support, the advocacy of organizations such as the Committee 
for Economic Development, the foreign language community 
recognizes that much progress has been made; at the same time, 
we realize that much work still needs to be done to create a 
language-ready workforce for the future.
    I would like to suggest the following, and some of them 
will repeat what my colleagues on this panel have said and what 
has been said earlier.
    We need continued funding of language programs that offer 
longer-articulated sequences of foreign language instruction 
and which clearly and unequivocally target the development of 
advanced language skills. The National Flagship Programs in the 
critical languages serve as models in this area.
    We do, however, need additional funding opportunities to 
support extended sequences in both commonly and less-commonly 
taught languages to build a strong infrastructure in all of the 
languages that we teach in our K-16 curriculum.
    As we develop and implement longer sequences of language 
study, we need to ensure funding of programs that develop a 
corps of qualified language teachers, particularly in the 
critical languages, where a teacher infrastructure needs to be 
established. The State of Ohio's House Bill 115 funding of 
alternative licensure programs is an excellent example of the 
support needed in this area.
    We need continued Federal support for study abroad programs 
where language and culture skill development are integral to 
the program; that is to say where the programs take place in 
the foreign language and not in English.
    The benefits of study abroad are too numerous to mention 
here, but a recent finding of a study by the Institute of 
International Education of Students quoted in a report of the 
Commission on the Abraham Lincoln Study Abroad Fellowship 
Program is noteworthy. Eight percent of the respondents said 
that study abroad allowed them to acquire skill sets that were 
important to their careers, and this is added to the many 
benefits of study abroad.
    We will need continued advocacy for foreign languages by 
the Federal Government, by State Governments, and by 
educational and business organizations to make foreign 
languages part of the core curriculum and one of our basic 
educational skills.
    When asked about the President's National Security Language 
Initiative, one Midwestern superintendent replied that we would 
be better off focusing on more ``meat and potatoes'' subjects. 
This comment gets to the core of the problem: Foreign languages 
need to be part of the core. Languages need to be considered 
``meat and potatoes,'' an essential part of the educational 
meal and not just a tasty dessert.
    Finally, we need to develop a national language policy that 
clearly emphasizes the importance of foreign language to our 
collective interests. A policy that calls for the development 
of advanced skills with longer sequences of language 
instruction and a policy that clearly establishes foreign 
language as a basic component of a core curriculum at all 
levels of instruction.
    Thank you for giving me this opportunity.
    Chairman Akaka. Thank you very much, Dr. Birckbichler. I 
was glad to hear of some of the programs that you have. I was 
pleased to see that the Partnership for Public Service and Ohio 
State joined together to hold a foreign language career day.
    Ms. Birckbichler. Right.
    Chairman Akaka. Can you share with us a little more about 
that event and how it was viewed by students in attendance?
    Ms. Birckbichler. OK. I can do that. And let me also say 
that in November, I think it was, at least it was in the fall 
quarter, in collaboration with the Partnership for Public 
Service, we had a campus-wide Federal career day, attended by 
1,300 students and represented by 55 agencies.
    The student reaction to the foreign language career day was 
excellent. We had over 200 students, which is really a large 
number of students, and I think what is significant is the next 
day when several of the agencies had special briefing sessions, 
they were very well-attended. Thirty and 40 students attended 
them.
    So we had a very positive reaction, and the positive 
reaction was that our students did not know that these 
opportunities existed. They were very much taken by the 
incentives, the pay incentives, and so we felt that this 
opportunity gave our students--this is another pipeline to the 
Federal Government. Very well received.
    Chairman Akaka. Thank you for that. Ms. Oleksak, you 
testified that efforts to encourage programs to study critical 
need languages should not be at the expense of current programs 
that are teaching languages such as French, German, and 
Spanish.
    Ms. Oleksak. Yes.
    Chairman Akaka. Could you elaborate on the importance of 
continued Federal support for those languages?
    Ms. Oleksak. Absolutely it is imperative, and I am going to 
bring it back to a local level because I am the Foreign 
Language Director in Glastonbury, Connecticut Public Schools 
where we have a 50-year history of elementary foreign language 
program. We are also bringing in Chinese currently at our high 
school. We are hoping to run a summer camp in Chinese as a way 
to influence the program.
    And we are also looking at the elementary school where we 
teach about China in third grade as part of Social Studies, but 
we are doing that in a very delicate way because we also offer 
Russian, Latin, Greek, French, and Spanish. And our program is 
grades 1-12 Spanish. Our students build upon the Spanish to 
learn a second foreign language and then a third foreign 
language.
    It is a delicate balance that you have to have a 
conversation with in your communities, what is the need of your 
community for language learning.
    We have a website and on our website for our foreign 
language program we have a link to alumni where they talk about 
how they have used their languages, all the languages that we 
teach, in a variety of ways, whether it is for business or 
government, we have some that have gone in the foreign service.
    So I think that the word is a delicate balance and the need 
will be we have to continue the funding for all languages 
because today's critical need will not be the same need next 
year and we will always need, as was said earlier in testimony, 
for interpreters in many languages.
    Chairman Akaka. I was interested in your 10-point program 
that you mentioned and wish you well on that.
    Mr. Petro, both you and Mr. Dominguez from DOD testified 
about the need for business to be involved in supporting 
foreign language education programs.
    What is the business community doing to support foreign 
language programs and how can we increase these efforts?
    Mr. Petro. Senator, I think they are probably not doing 
enough. I would argue, though, that there are reasons to be 
optimistic. I think there are several large companies around 
the country that have started to compensate their employees for 
learning foreign languages. I believe they are Proctor and 
Gamble, IBM, and Intel. I know that, for instance, the CEO of 
UPS, Michael Eskew, has been quite eloquent in speaking on 
behalf of increased funding for these programs.
    However, what CED is doing and what I had mentioned earlier 
in my testimony is really informing, engaging, and mobilizing 
business leaders around this issue. Since so much of this is 
about money, when legislators hear from large employers that 
this is an issue of concern, when they see an op-ed from a CEO, 
it is a different player in this issue. All of a sudden it 
turns heads and it says, ``Oh, my goodness, those people 
represent voters, those people represent a large part of the 
population.''
    So it is really sort of informing business but also 
mobilizing them and giving them things to do and that is what 
CED's role is and that is the way we view the things that we 
can add to this debate.
    Chairman Akaka. Dr. Birckbichler, you testified that the 
United States needs a national language policy.
    Ms. Birckbichler. Yes.
    Chairman Akaka. Can you discuss what is lacking in our 
current efforts and what should be included in any language 
policy?
    Ms. Birckbichler. What is lacking is that if there is one, 
its not very well known. It is not. There are bits and pieces, 
and one could pull together what we think is the national 
language policy. The National Security Language Initiative 
(NSLI), there are all sorts of initiatives that work around 
languages, that relate to languages, but what I would like to 
see is a very strong policy that says the United States of 
America is committed to developing a global-ready workforce 
equipped with professional-level language and culture skills 
and that in order to do this, we need to do the following: We 
need advanced language skills, we need longer sequences, and we 
need to be in the core curriculum.
    I truly believe that not being in the core curriculum is 
one of the things at least in the K-16 language programs is 
what holds us back. We do not need to be left behind, and as 
long as we are not in the core, we continue to be left behind. 
We are put aside because there are proficiency tests that need 
to be taken, but they are not foreign language proficiency 
tests.
    So that is what I would like to see, and I would like to 
see that policy developed by the Federal Government, by the 
business community, by language professionals, by 
representatives from K-16.
    Chairman Akaka. Thank you very much. My time has expired. 
Senator Voinovich.
    Senator Voinovich. I thank you, Mr. Chairman.
    Usually when people exert effort, they have to be 
motivated, and would you like to each comment quickly on the 
fact that today more countries around the world are teaching 
English, and that as a result of that there seems to be a 
lessening in people's heads of the need to develop foreign 
languages here?
    There was a day when you had to learn French or you had to 
learn German, you had to learn another language, but today I go 
to international conferences and everybody speaks English. It 
seems to me that part of the reason why businesses and others 
are not motivated to learn a foreign language is because they 
figure they do not have to do it and they will save the cost 
and effort.
    Ms. Oleksak. I would be happy to talk about that because I 
think what is so important for us to keep in mind is that 
learning a language is more than just learning to communicate 
in that language, but it is learning to understand the culture 
as well. And when I say ``culture,'' I think about not only the 
products that are in existence but the practices and the 
perspectives.
    And I think that in learning about the culture, which is a 
part of learning another language, about the people and the 
community in which they live, would help us have a much better 
understanding on both an education level and also on a 
government level and on a security level.
    Senator Voinovich. What are the average curriculum 
requirements? Now, for instance in Ohio, the governor finally 
adopted more math and science, but they kind of punted on 
languages and said, ``We want to study it.''
    No Child Left Behind does not really emphasize languages. 
Universities, undergraduate schools, liberal arts, in order to 
get a degree in the old days at least you had to have 2 years 
of a language to graduate. What I am trying to say that some of 
the motivation here has got to do with requirements.
    Ms. Oleksak. And if I can continue, I would say that on a 
couple of factors to address your question that is why we need 
a coordinated effort, and I went so far as to say K-16 that on 
the opposite from the first panel instead of looking from the 
top down, in our district in Glastonbury I could say from the 
bottom up. I would like to see people come down and talk to our 
juniors and seniors and encourage them in high school to move 
on to college programs.
    Senator Voinovich. Do you have AP courses?
    Ms. Oleksak. Yes, we do.
    Senator Voinovich. Are any of your kids who are taking AP 
courses taking languages?
    Ms. Oleksak. Yes.
    Senator Voinovich. They are?
    Ms. Oleksak. Yes. And actually, we have some students that 
are taking as many as two AP language courses at the same time, 
sometimes three. I can say that we have to work with parents 
and families to talk about a skill set, a language as a skill 
set to help them.
    And one of my 10 points that I talked about the opportunity 
of combining with another career and language is the value-
added piece of success in the future in a global economy.
    Senator Voinovich. OK. Mr. Petro.
    Mr. Petro. When it starts to affect the bottom line, that 
is when people notice. And what I would argue is that 
technological advances and lower trade barriers have paved the 
way, as we all know, for lesser-developed countries to compete 
in the marketplace and that affects the bottom line.
    Ms. Oleksak mentioned about international knowledge. I want 
to read something from the CED report that Microsoft 
Corporation developed a time zone map for its Windows 95 
operating system. It inadvertently showed the region of Kashmir 
lying outside the boundaries of India. India banned the 
software and Microsoft was forced to recall 200,000 copies of 
the offending product. That cost money.
    So what I would argue is it is the bottom line, and I do 
think business is starting to see that. And I agree when you go 
to these conferences, everyone is speaking English, but I think 
it is deeper than that and I think especially with these 
developed countries entering into the fray, it is starting to 
change some views on that.
    Ms. Birckbichler. I think it is a very naive assumption on 
the part of businesses, and I am really kind of shocked that 
they continue to have that, that all business is done in the 
boardroom. All business is not done in a boardroom or in the 
scientific lab. So much of business takes place, at least in 
many cultures, outside of that formal business environment. So 
that combined with the compelling economic arguments, I think, 
would go a long way to convincing some people.
    Senator Voinovich. Mr. Petro, in your testimony you noted 
the intense global competition facing American businesses and 
emphasized a need to address 21st Century economic challenges 
with employees who possess knowledge of foreign languages and 
cultures. Yet even many of our Nation's finest business schools 
continue to lack foreign language requirements and much of our 
corporate workforce lacks foreign language skills or cultural 
awareness.
    Your committee reports that American companies lose and 
estimated $2 billion a year due to inadequate cross-cultural 
guidance for their employees in multi-cultural situations.
    Do you have specific examples of those costly blunders or 
lost opportunities that maybe Senator Akaka and I could 
communicate to the National Business Roundtable?
    Mr. Petro. Yes. I can certainly provide them from this 
Subcommittee. I do not have them right here in front of me. I 
would say that, as I mentioned earlier, university presidents 
are part of CED, and we do have some of the great business 
schools on board with us and we have talked to them about the 
need to increase instruction.
    I will talk to you about a survey that 80 percent of the 
business school graduates over the last 20 to 30 years talk 
about the fact that having a knowledge or a proficiency in a 
foreign language has given them an added advantage. So clearly, 
the people coming out of the schools know that it makes a 
difference, but there are plenty of examples that I will be 
happy to provide this Subcommittee with.
    Senator Voinovich. I was just thinking, Senator Akaka, if 
you could maybe draft a letter for us----
    Mr. Petro. All right.
    Senator Voinovich [continuing]. And we could embellish it 
and kick it around a little bit and send it over to the 
National Business Roundtable----
    Mr. Petro. Sure.
    Senator Voinovich [continuing]. And say, ``You guys, this 
is a problem, what are you doing about it?''
    Mr. Petro. Right.
    Senator Voinovich. And ask them to get back to us about 
whether they have goals in place and is receiving attention in 
corporate America.
    It is not enough for them to say, ``Oh, boy, we need more 
people coming in that speak the languages,'' but what are they 
doing about it?
    And one thing that is tough, Ms. Oleksak, is that we have 
limited resources here. I know you had many suggestions of what 
we all ought to do, and I know your job is to kind of get it 
all out there, but I really hope that you will talk with your 
co-workers and come back with a strategic priority list, 
because we cannot do it all. I mean, we would like to do it 
all, but it will not happen.
    So I would like to know what are the top three priorities 
that maybe we could work on that would make a difference for 
you and the things that you care about.
    Ms. Oleksak. We will be happy to provide that. Definitely.
    Chairman Akaka. Thank you very much. Senator Voinovich, we 
will have a second round.
    Ms. Oleksak, I noted with interest your support for a 
director of national language initiatives as outlined in the 
Department of Defense white paper. At what level in the Federal 
Government do you believe a national language director should 
be placed and what should be his or her responsibilities?
    Ms. Oleksak. What I would like to say is that I do not feel 
that I have the right actually to determine what level the 
person should be placed at, but what I do think is that we need 
a coordination of efforts.
    There are many different initiatives going on across the 
country K-16. I am talking even within the education field. And 
I think that what we need is the opportunity to gather 
information at both the State, regional, and local levels, and 
we need to be able to look across the country at all the 
programs where the funds are going and how to best streamline 
our efforts.
    There were comments made in the earlier panel about not all 
districts having sufficient funding or opportunities to provide 
foreign language education to the same level that other 
districts can do.
    I think this is where we would be able to look and see 
where the gaps are and hopefully fill in those gaps and try to 
combine our efforts to try to explore a variety of avenues, not 
only between teacher training, professional development. We 
could also look at the education department and talk about 
Teacher-to-Teacher.
    We are looking at that with foreign language in ACTFL and 
we have invited them to participate with us this fall in our 
National Foreign Language Conference. Not only will foreign 
language teachers participate with Teacher-to-Teacher, we have 
invited them to join us as well. And I think that what we need 
to do is try to pool our efforts to try to work together 
better.
    Chairman Akaka. Thank you. Mr. Petro, you testified that 
the media, political leaders, and the business and 
philanthropic communities should make the public aware of the 
importance of improving education in foreign language and 
international studies. I support such a public awareness 
campaign because it will increase the interest and demand for 
more programs.
    What recommendations do you have for us to ensure that 
there is a coordinated effort to educate the public on this 
issue?
    Mr. Petro. I would agree with what Ms. Oleksak just said. I 
think some sort of a coordinating body or some leadership from 
government that can help, that can tap into the various 
different sectors so people know what we are all doing at the 
same time.
    I know that if you look at models and examples certainly in 
the States around certain education efforts, the private sector 
sits very prominently on some of these task forces and boards, 
so there is a willingness for business certainly to participate 
in these sort of outreach efforts.
    But I do think that it is important. Just being here for 
the few hours I have learned in just chatting with some of my 
colleagues about certain things going on that I did not know 
about, so I think at the very least some sort of coordinating 
body or individual to help bring it together would be helpful.
    Chairman Akaka. Thank you. Ms. Oleksak, you testified that 
universities are increasingly offering double majors coupling 
language study with another major such as engineering or 
physics.
    Ms. Oleksak. Yes.
    Chairman Akaka. Do you have any information or any 
statistics on this?
    Ms. Oleksak. We can provide that information for you. I can 
give you an example that comes to mind right now. The 
University of Rhode Island offers a combined program in 
International Engineering and German and they are expanding to 
other languages as well. They have a high success rate and 
great student participation in this program, but ACTFL would be 
happy to provide that information for you.
    Chairman Akaka. Thank you very much. I want to tell you 
that I really appreciate the responses from our witnesses. I 
feel you are very enthusiastic about this and together we can 
certainly put things together. Keep in touch and share 
information with each other as we go along. Senator Voinovich.
    Senator Voinovich. Just another comment. I am thinking 
about all of the places where you would get an opportunity to 
give foreign language education a jolt, and I am fairly 
familiar with the report of the National Academy of Sciences, 
``Gathering Above the Rising Storm.'' It is basically on math 
and science preparation, upgrading math and science teachers. 
But it was interesting: I do not think they even mention 
languages. They just kind of left it out.
    These are the kind of reports and recommendations in which 
there should be some real effort to emphasize the importance of 
foeign language education. If it is not there, then they think, 
well, all you need to do is just study math and science, forget 
the rest of the stuff. It is that way with a lot of the States 
and our testing program in Ohio.
    I asked a question of the other panelists, and maybe you 
can help me on this, Dr. Birckbichler. When you get money from 
the Federal Government, tell me about how it gets out to the 
schools and how do schools access those funds?
    And it gets back to the question I have is if I want to get 
something done quick, what you do is you go for the low-hanging 
fruit.
    Ms. Birckbichler. Right.
    Senator Voinovich. How does that work?
    Ms. Birckbichler. The way it works best is if you have a 
school with a strong language program like you mentioned 
earlier that has already begun to make connections with the K-
12 community.
    One of the reasons that I think Ohio State has been so 
successful with the K-16 Pipeline Project is that the director 
of that program had already begun work in talking to high 
school teachers and especially high school administrators and 
superintendents. So there was already a network that was being 
established before the funding was given.
    And I do not know whether it was Ms. Oleksak or someone 
else talked about collaboratives, and I think this whole idea 
of partnerships is really important because if you establish a 
K-16 collaborative project in a State, you already have that 
network formed and it makes it much easier to identify the 
people you want to work with.
    Senator Voinovich. OK. But how much money did you get?
    Ms. Birckbichler. It was $1 million.
    Senator Voinovich. So you got $1 million and do any of the 
schools get any of that money?
    Ms. Birckbichler. At this point and, correct me if I am 
wrong on the trajectory, the trajectory right now is to develop 
the curriculum and then start putting it in the schools.
    Senator Voinovich. And so in effect you have not done that 
yet, you are working on that right now?
    Ms. Birckbichler. Right.
    Senator Voinovich. Probably, as you say, you have got some 
networks out there that you are getting input from about what 
they think about the best way of doing this.
    Ms. Birckbichler. Yes.
    Senator Voinovich. There are some very innovative ways to 
teach people languages these days. The Federal Government has 
got some really good training programs.
    Is there any kind of communication back and forth about 
what is really working the best?
    Ms. Birckbichler. There have been programs like that in the 
past. I know at ACTFL there are oftentimes speakers from the 
Federal Government, but I do not know of any recent initiative 
where we had a formal gathering to do just that.
    Ms. Oleksak. If I could just add that at ACTFL, as you 
mentioned, Dr. Birckbichler, that we have worked with the 
Defense Languages Institute for a number of years and we have 
increased participation annually at our conference.
    We also have been working closely on a contract to develop 
assessments that are appropriate in the language profession 
that are proficiency-based assessments applicable for students 
K-12, and we are trying to transition that into the education 
field.
    We have ongoing conversations about the issues that exist 
at both the government level and at the local level and we also 
have the FBI invited to our conference and we are looking to do 
more to expand that as well.
    I can also say that a couple of years ago we had an 
assessment summit that brought in groups from various 
organizations to come in and talk about it. It was a 
culminating activity as part of New Visions in Education and 
talking about a variety of different areas.
    But if I could also add another piece about Federal 
funding, Glastonbury and formerly when I was in Springfield 
Public Schools, an urban district in Massachusetts, we received 
foreign language assistance program grant funding to develop 
curriculum at the elementary level, to also develop 
assessments.
    Senator Voinovich. Was that from your State?
    Ms. Oleksak. Yes. And I can tell you though that because 
you asked the question about does it go to the schools. It does 
impact all the schools in the way the curriculum is delivered, 
and part of the requirements of that grant funding is that you 
also disseminate the information in the profession and share 
what you have created so that other teachers through 
professional development and other opportunities can learn 
about your program and replicate it.
    Senator Voinovich. Do you have any communication with each 
other, Dr. Birckbichler and Ms. Oleksak?
    Ms. Oleksak. Oh, absolutely.
    Ms. Birckbichler. Yes.
    Ms. Oleksak. Dr. Birckbichler is a past president of ACTFL.
    Ms. Birckbichler. Right.
    Senator Voinovich. OK. All right. That is good. Ms. 
Oleksak, is that Slovak or a Czech name?
    Ms. Oleksak. Czechoslovakian, yes.
    Senator Voinovich. We have a good Italian, German, Serb, 
and native Hawaiian. That is America.
    Ms. Birckbichler. That is right. [Laughter.]
    Senator Voinovich. My mother did not start to speak English 
until she was in the first grade. She speaks perfect Slovenian 
and my dad spoke perfect Serbian.
    That is another thing that is happening that I think ought 
to be encouraged. In my family, my folks were first generation, 
both of them unusual, college graduates, went to college in the 
Depression, and they never spoke their native languages at 
home, so I never learned.
    But maybe we ought to be saying, yes, we want your kids to 
learn to speak English for certain. But for goodness sakes, do 
not let them lose their heritage.
    Ms. Birckbichler. To build on.
    Senator Voinovich. I guess what I am saying is that so 
often we think about all these complicated programs, but there 
are also some simple things that we ought to look at here.
    The other issue I would like you each to comment on is we, 
in the Homeland Security Committee are very concerned about 
integrating the Muslim population in the United States and how 
few people are really learning Arabic and Farsi and it gets 
back to the need for cultural education.
    What outreach could be made in that community, a real 
aggressive outreach to talk to Muslim and Arab American 
youngsters about the opportunities that they have for getting 
good jobs if they continue their language and get others to 
learn the language so you get some kind of a cross-
fertilization going on with them.
    My last question is about Partnership for Public Service. 
Senator Akaka and I feel very good about that organization. The 
Partnership for Public Service got started when we had an 
executive session that began up at the John F. Kennedy School 
of Government that Dean Nye put together with Max Stier. Can 
you tell me how the Partnership for Public Service is assisting 
with this issue.
    Ms. Birckbichler. Well, it harks back to what Senator Akaka 
said at the very beginning of the testimony and that is making 
the Federal Government the workplace of choice, and I think 
what it does is establish that pipeline between the Federal 
Government and its agencies and American undergraduates who did 
not know of these opportunities or did not have as easy access 
to them as they do now that the Partnership exists.
    Senator Voinovich. So because the Partnership has a 
relationship with your school, they are bringing to your 
attention the opportunities that your graduates would have in 
the Federal Government; is that right?
    Ms. Birckbichler. That is right, and what is nice is it is 
very reciprocal, that means we also know there is a 
clearinghouse, there is a one-stop shopping for us that we know 
we can go to the Partnership and ask about opportunities in the 
State Department, in the DIA, and the CIA. So it has been very 
convenient in many ways.
    Senator Voinovich. Does that help you market your program 
at all?
    Ms. Birckbichler. It does. Yes, it does.
    Senator Voinovich. Yes.
    Ms. Birckbichler. And we hope to have the same type of 
career day this coming spring and invite back the same Federal 
agencies and if not more.
    Senator Voinovich. Can you market that with the School of 
Engineering and your business school and other majors?
    Ms. Birckbichler. The campus-wide did, and the Partnership 
I believe has relationships with the College of Engineering. 
This was all a pilot program. At OSU there was the Foreign 
Language Initiative and engineering and I think there were one 
or two others.
    Senator Voinovich. That is great, isn't it? Thank you.
    Chairman Akaka. Thank you very much, Senator Voinovich. 
This has been a great hearing. I want to thank all witnesses 
today and to tell you you have provided valuable information to 
this Subcommittee.
    As I mentioned in my opening statement, I believe there 
must be sustained leadership in the Executive Branch and a 
coordinated effort among all levels of government, the private 
sector, and academia to ensure that Americans have a real 
understanding of other languages and cultures.
    Based on what I have heard today, I am more convinced than 
ever that legislation is needed to make this happen. Next week 
I will reintroduce the National Foreign Language Coordination 
Act to establish a national language director and a Foreign 
Language Coordination Council to develop and oversee the 
implementation of a national language strategy. Our economic 
and national security depends on it, without a doubt.
    The hearing record will be open for one week for additional 
statements or questions from other Members.
    Are there any further comments you want to make?
    Senator Voinovich. I would like very much if Mr. Petro 
would respond about drafting a letter to the Business 
Roundtable about the importance of foreign language skills to 
our economic competitiveness.
    Mr. Petro. Yes. We will put together a letter in the next 
few days and get it over to your offices.\1\
---------------------------------------------------------------------------
    \1\ The letter referred to appears in the Appendix on page 98.
---------------------------------------------------------------------------
    Senator Voinovich. Thank you. Are any of your groups 
familiar with Senator Akaka's legislation?
    Mr. Petro. Yes.
    Senator Voinovich. And you are supporting it?
    Mr. Petro. CED generally does not support legislation, but 
I can get my members to respond on their own behalf.
    Senator Voinovich. Good.
    Chairman Akaka. I thank you very much again. This hearing 
is adjourned.
    [Whereupon, at 5:19 p.m., the Subcommittee was adjourned.]



















                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
